                            SOCIAL SECURITY
                                   October 15, 2009




The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On August 18, 2009, your staff asked us to provide information on how the Martinez
class action settlement agreement would affect the Social Security Administration’s
(SSA) fugitive felon policy.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure SSA is aware of the information provided to your office, we are forwarding it
a copy of this report. I have also sent a similar response to Chairman Tanner, Ranking
Member John Linder of the Subcommittee on Income Security and Family Support, and
Member Wally Herger of the Committee on Ways and Means.

If you have any questions, please call me, or have your staff contact Misha Kelly,
Congressional and Intragovernmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue
John Tanner
John Linder
Wally Herger


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
  CONGRESSIONAL RESPONSE
         REPORT

  The Social Security Administration’s
Fugitive Felon Program and the Martinez
          Settlement Agreement

              A-01-09-29177




              October 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                          Background
OBJECTIVE
Our objective was to address a request from Congress to provide information on how
the Martinez class action settlement agreement would affect the Agency’s fugitive felon
policy.

BACKGROUND
On August 18, 2009, we were asked by the Subcommittee on Social Security,
Committee on Ways and Means, U.S. House of Representatives, for information on the
tentative settlement agreement reached by the Social Security Administration (SSA) in
the Martinez class action lawsuit. In this case, Martinez challenged SSA’s policy and
procedures in applying non-payment actions to fugitive felons.

The Social Security Act prohibits the payment of Title II and XVI benefits to a beneficiary
who is “fleeing” to avoid prosecution, custody, or confinement for a felony—and to a
beneficiary who is violating a condition of probation or parole—unless the Agency
determines that good cause exists for paying such benefits. 1

Martinez challenged SSA’s fugitive felon policy of basing payment suspensions solely
on the existence of an outstanding felony arrest warrant rather than developing
information to ensure that the individual was “fleeing.” As a result of the Martinez case, 2
a settlement was reached in which SSA policy will suspend Title II and deny Title XVI
benefits only if the individual’s outstanding felony warrant was issued for one of three
National Crime Information Center Uniform Offense Class Codes:
           Escape (Offense Code 4901);
           Flight to avoid prosecution, confinement, etc. (Offense Code 4902); and
           Flight-Escape (Offense Code 4999).

Additionally, under the Martinez settlement agreement, SSA will not select as a
representative payee individuals who have an outstanding felony warrant issued for one
of the three offenses cited above. However, SSA reserves the right to use all warrant
information in determining an individual’s suitability to serve as a representative payee.



1
 The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203
§ 203(a), March 2, 2004, and the Social Security Act §1611(e)(4), 42 U.S.C. § 1382(e)(4), as amended by
§ 203(b) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(b), March 2, 2004.
2
 The Federal District Court in Oakland, California ordered final approval of the settlement on
September 24, 2009. The settlement is expected to become effective on November 29, 2009.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                          1
The Martinez settlement agreement does not affect SSA’s policies or procedures for
processing Title II or XVI payments to beneficiaries with outstanding warrants for parole
or probation violations (for example, Offense Codes 5011 and 5012). 3

The Subcommittee on Social Security requested responses to four specific questions on
this matter.

    (1) What results has the fugitive felon program (which includes probation and parole
        violators) achieved under current law (pre-Martinez) since its inception (for
        example: savings, arrests, number of individuals removed from the rolls, etc.)?
        What have been the program’s most important successes and challenges?

    (2) If agreed to, how will the Martinez settlement provisions impact the success and
        challenges of the current program and what new challenges will they create?
        How many SSI and DI recipients will be affected by the decision (for example,
        how many will get checks, how much will that cost, how many arrests will not
        take place, etc.)?

    (3) Are there any other legislative changes/additions you would recommend to this
        language to ensure the future success of the fugitive felon program?

    (4) For the information requested above, to the degree possible, please provide a
        breakout of underlying offenses.

See Appendix B for our scope and methodology and Appendix C for additional
background information on SSA’s fugitive felon program.




3
 As of September 2009, SSA’s reliance on probation and parole violator arrest warrant information is
before the U.S. Court of Appeals for the Second Circuit (Clark v. Astrue, No. 08-5801).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                          2
                                                   Results of Review
We estimate that about 60.7 percent of individuals with outstanding warrants will be
paid Title II and XVI benefits as a result of the Martinez settlement agreement. The
remaining 39.3 percent will continue to have their benefits stopped. The 39.3 percent
consists of

          about 0.7 percent of fugitive felons who have outstanding warrants with one
           of the three Offense Codes cited in the Martinez settlement agreement; and

          about 38.6 percent who are probation or parole violators—since the Martinez
           agreement has no impact on this group.

The settlement agreement, however, does not restrict SSA or the Office of the Inspector
General’s (OIG) data sharing activities with law enforcement. Therefore, the OIG will
continue to obtain data from law enforcement agencies on fugitive felons wanted for all
offense codes and match that data with SSA’s records. Additionally, the OIG will share
information in SSA’s records regarding the fugitive’s location (that is, address
information) with law enforcement so that they can potentially arrest the fugitive.

Responses to the specific questions from the Subcommittee on Social Security are
below.

QUESTION 1
What results has the fugitive felon program (which includes probation and parole
violators) achieved under current law (pre-Martinez) since its inception (for example:
savings, arrests, number of individuals removed from the rolls, etc.)? What have been
the program’s most important successes and challenges?

SSA identified fugitive felons and probation or parole violators through data matches
between the Agency’s beneficiary rolls and Federal and State warrant databases.
Since the program’s inception in August 1996 through July 2009, it has contributed to a
total of 86,309 arrests. Of the 86,309 arrests

      822 (1 percent) individuals were arrested for the offenses cited in the Martinez
       agreement—escape, flight to avoid prosecution or confinement, or flight-escape;

      38,114 (44 percent) individuals were arrested for violating a condition of
       probation or parole; and

      47,373 (55 percent) individuals were arrested for all other offenses.




Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                            3
Table 1 summarizes our two reviews related to fugitive felons and probation or parole
violators receiving Title II or XVI benefits—pre-Martinez.

                Table 1: Fugitive Felons and Probation or Parole Violators
                            Receiving Title II or XVI Benefits
                                           Funds Not              Overpayments
                                             Paid or             to be Recovered           Payments Not
     Title/Date of OIG Review
                                          Overpayments             and Potential            Recovered 4
                                           Recovered              Funds Not Paid
    Assessment of the
    Supplemental Security Income
    Fugitive Felon Project                     $83,403,489              $206,927,672           $158,067,262
    (A-01-03-23070),
    September 2003 5
    Title II Benefits to Fugitive
    Felons and Probation or Parole
                                              $404,252,378              $249,676,172            $60,290,969
    Violators (A-01-07-17039),
    July 2008
     Total                                    $487,655,867              $456,603,844           $218,358,231

In our September 2003 report, we estimated that SSA
    did not pay, or recovered, about $83.4 million in Title XVI program funds between
     August 1996 and February 2003 by stopping or recovering Title XVI payments to
     32,979 fugitive felons and probation or parole violators; 6
    had the potential to recover an additional $206.9 million in payments to fugitives for
     months up to and including February 2003; and
4
  This included overpayments for which SSA granted repayment waivers or deemed uncollectible; and
payments issued to recipients for months during which they were fugitives but SSA did not pursue
recovery because the Agency applied its administrative finality rules. It also included benefit payments
identified based on our audit—which SSA did not detect but would not attempt to recover because of its
administrative finality rules. Additionally, it included benefits paid to beneficiaries with outstanding felony
warrants that would not be recovered because of the Fowlkes Ruling.
5
  The $83.4 million is significantly lower than the other two categories because although the fugitive
provisions took effect in August 1996, it took SSA several years to set up data matching with law
enforcement agencies, and SSA limited its overpayment assessments for fugitives to the 24 months
before the date it discovered the warrant under its rules of administrative finality (unless fraud or similar
fault was involved).
6
  Effective August 1996, an individual was ineligible for Title XVI payments for any month during which
he/she is (1) fleeing to avoid prosecution for a crime which is a felony (or in New Jersey, a high
misdemeanor) under the laws of the place from which the person flees; (2) fleeing to avoid custody or
confinement after conviction for a crime which is a felony (or in New Jersey, a high misdemeanor) under
the laws of the place from which the person flees; or (3) violating a condition of probation or parole
imposed under Federal or State law. Pub. L. No. 104-193, § 202(a), 110 STAT. 2185-2186, Social
Security Act § 1611(e)(4), 42 U.S.C. § 1382(e)(4).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                                     4
   did not recover $158.1 million in Title XVI payments issued to fugitive felons, despite
    their outstanding warrants. 7

In our July 2008 report, we estimated SSA

   did not pay, or recovered, about $404.3 million in Title II program funds from
    January 2005 through March 2008; 8
   had the potential not to pay, or recover, an additional $249.6 million by withholding
    future payments and recovering overpayments made through March 2008; and
   did not recover approximately $60.3 million in Title II benefits issued to fugitive
    felons, despite their outstanding warrants. 9

Table 2 summarizes our two reviews related to fugitive felons and probation or parole
violators serving as representative payees for Title II or XVI beneficiaries—pre-Martinez.

               Table 2: Fugitive Felons and Probation or Parole Violators
                          Serving as Representative Payees
                                                                                       Funds
                                                                 Funds
                                                                                    Expected to
                Title/Date of OIG Review                       Managed by
                                                                                    be Managed
                                                                 Payees
                                                                                     Annually
     Fugitive Felons Serving as Representative
                                                                  $75,841,193          $19,358,640
     Payees (A-01-08-18021), March 2009
     Probation or Parole Violators Serving as
     Representative Payees (A-01-09-29112),                       $26,876,147           $4,076,164
     August 2009
       Total                                                     $102,717,340          $23,434,804



7
 SSA did not recover these funds because it granted repayment waivers, deemed the payments
uncollectible, or applied its rules of administrative finality.
8
  Beginning January 1, 2005, the Social Security Act prohibits the payment of Title II benefits to a
beneficiary who is fleeing (for a period of more than 30 days) to avoid prosecution, custody, or
confinement for a felony—and to a beneficiary who is violating a condition of probation or parole—unless
the Agency determines that good cause exists for paying such benefits. The Social Security Act
§§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), as amended
by § 203(a) of the Social Security Protection Act of 2004, Pub. L. No. 108-203 § 203(a), March 2, 2004.
In our July 2008 report, we found that 6 of the 275 sample cases involved the good cause provision; and
this projects to about 1,937 from a population of 219,635 cases (or less than 1 percent) involving the
good cause provision.
9
 This includes funds paid to beneficiaries as a result of Social Security Acquiescence Ruling 06-1(2),
Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005): Determining Whether an Individual Is a Fugitive Felon
Under the Social Security Act (Act)—Titles II and XVI of the Act, Federal Register, Vol. 71, No. 66, at
page 17551 (April 6, 2006).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                                5
In our March 2009 report, we estimated SSA
    paid approximately $75.8 million between April 2005 and September 2008 to about
     6,527 fugitive felons who served as representative payees for about
     8,384 beneficiaries and 10
    would pay about $19.4 million over the next 12 months if the warrants remained
     unsatisfied and the fugitive felons continued serving as representative payees.

In our August 2009 report, we estimated SSA
    paid approximately $26.9 million between April 2005 and January 2009 to about
     1,800 probation or parole violators serving as representative payees for about
     2,439 beneficiaries. Of this amount, probation or parole violators serving as payees
     received approximately $8 million in Title II benefits and $18.9 million in Title XVI
     payments; and 11
    would pay about $4.1 million over the next 12 months if the warrants remained
     unsatisfied and the probation or parole violators continued serving as representative
     payees.

Successes and Challenges

SSA’s fugitive felon program has successfully assisted law enforcement agencies with
apprehending fugitive felons. This contributes to the safety of the American public by
taking criminals off the streets. Additionally, millions of Social Security Trust Fund
dollars and General Fund dollars have not been paid to, or have been recovered from,
fugitive felons. Finally, the needs of many of the most vulnerable beneficiaries have
been protected because fugitive felons have not been appointed as representative
payees.

As for challenges, significant resources were required to set up the data matches with
law enforcement agencies to obtain and process warrant information. The process has
been in place for several years. It allows the OIG to identify fugitive felons and share
address information with law enforcement to assist in the arrest of the fugitive felons
and the Agency to suspend or deny Title II or XVI payments. However, the process
could be automated more, and renewing the computer matching agreements is a
challenge. Also, communication and cooperation with law enforcement officials
continue to be challenges. Additionally, SSA has had to devote resources to challenges
in court of the Agency’s implementation of the fugitive provisions in the Social Security
Act—such as in the Fowlkes v. Adamec, Martinez v. Astrue, and Clark v. Astrue court


10
  The Social Security Protection Act of 2004, Pub. L. No. 108-203 §§ 103(a), 103(c), and 103(d),
disqualifies fugitive felons from serving as representative payees and took effect in April 2005.
11
  The Social Security Protection Act of 2004 disqualifies probation or parole violators from serving as
representative payees for Title XVI recipients; however, there is no similar provision for Title II
beneficiaries. Pub. L. No. 108-203 §§ 103(c)(1)(C)(V) and (c)(3)(C). See also Social Security Act
§ 1631(a)(2)(B)(iii)(V), and 1611(e)(4)(A)(ii), 42 U.S.C. § 1383(a)(2)(B)(iii)(V), and 1382(e)(4)(A)(ii).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                               6
cases. 12 Although the Clark v. Astrue court case was decided in the Government’s
favor at the District Court level, the plaintiffs have appealed. If the Circuit Court decides
in the plaintiffs’ favor, SSA’s continued ability to prohibit payment on the basis of
probation or parole violation might be affected.

QUESTION 2
If agreed to, how will the Martinez settlement provisions impact the success and
challenges of the current program and what new challenges will they create? How
many SSI and DI recipients will be affected by the decision (for example, how many will
get checks, how much will that cost, how many arrests will not take place, etc)?

According to the Martinez settlement agreement, SSA will suspend payments to
individuals using the current policy and procedures for only three offense codes:
Escape (4901); Flight to avoid prosecution, confinement, etc. (4902); and Flight-Escape
(4999). Additionally, parole and probation violators (for example, 5011 and 5012) are
not affected by the Martinez settlement agreement and will continue to be ineligible for
benefits.

Based on a file of 271,618 fugitive felons and probation or parole violators as of
October 5, 2006, we determined that SSA could continue to withhold or recover
payments from only 39.3 percent of these individuals under the Martinez settlement
agreement. 13 Therefore, the Martinez settlement agreement will reduce the number
and amount of Title II and XVI suspensions. Table 3 shows the impact the Martinez
settlement could have on the Title II and XVI programs.




12
  Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005), and Martinez v. Astrue, Case No. 08-CV-4735 CW,
(N.D. CA., Oakland Div.); Clark v. Astrue, 2008 WL 4387709 (S.D.N.Y., Sept. 22, 2008).
13
  The 39.3 percent represents 38.6 percent of the cases that were probation or parole violators, and
0.7 percent that were fugitive felons with Offense Codes 4901, 4902, or 4999 (see Table 5).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                          7
                Table 3: Fugitive Felons and Probation or Parole Violators
                          Receiving Title II or Title XVI Benefits
                                     Funds Not Paid     Funds Not Paid
                                            or                 or
                                     Overpayments        Overpayments
         Title/Date of OIG
                                       Recovered        Recovered After          Variance
              Review
                                     Before Martinez       Martinez
                                       Settlement         Settlement
                                       Agreement          Agreement
     Assessment of the
     Supplemental Security
     Income Fugitive Felon
     Project (A-01-03-23070),
     September 2003                       $83,403,489         $32,777,571         $50,625,918
     Title II Benefits to Fugitive
     Felons and Probation or
     Parole Violators
     (A-01-07-17039), July 2008          $404,252,378        $158,871,185        $245,381,193
      Total                              $487,655,867        $191,648,756        $296,007,111

To put this into perspective, for our two reviews in which fugitive felons and probation or
parole violators were receiving Title II or XVI payments, we estimated SSA did not pay,
or recovered, about $487.7 million. However, if the Martinez settlement were in place,
the Agency would have not paid, or would have recovered, only about $191.6 million
($487.7 million multiplied by 39.3 percent). 14

According to SSA, early in the negotiation sessions for the Martinez case, the Agency
developed a rough estimate of the effect a possible settlement would have in terms of
benefits to be paid under the Title II and XVI programs. The estimate was based on a
very general version of a possible settlement agreement—not a specific set of
settlement provisions—and it did not rely on the detailed identification of the affected
population and their associated liabilities. However, the plaintiff’s attorney became
aware of this “ballpark” estimate, and it has been incorrectly associated (in media
reports) with the agreement. In August 2009, SSA’s position was that, even once the
settlement is finalized and the specific terms agreed to, the Agency will not be able to
provide a reasonable estimate at that time. For example, class members will need to be
identified, and legal limits on eligibility—such as Title XVI income and resource limits—
will need to be determined. Additionally, the cost of the settlement will include
administrative costs associated with the resources the Agency will need to devote to
implementing the terms of the settlement, including re-evaluating cases and re-
programming its computer systems.


14
  These amounts cover nonconsecutive audit time periods—from August 1996 through February 2003
and from January 2005 through March 2008—and do not include an estimate for the 21-month period
between the two audits.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                     8
QUESTION 3
Are there any other legislative changes/additions you would recommend to this
language to ensure the future success of the fugitive felon program?

Currently, the Social Security Act prohibits the payment of Title II and XVI funds to a
beneficiary who is fleeing to avoid prosecution, custody, or confinement for a felony—
and to a beneficiary who is violating a condition of probation or parole—unless the
Agency determines that good cause exists for paying such benefits. 15

Removing the word “fleeing” from the language of the law and incorporating language
prohibiting payment to individuals with an outstanding felony warrant would enable SSA
to not pay benefits to these individuals and prohibit them from being representative
payees. Another option would be to define what is meant by the word “fleeing” in the
context of this legislation. For example, “fleeing” could be defined as the point in time a
beneficiary is notified by SSA that he or she has an outstanding felony warrant. In
revising this legislation, consideration could also be given to limiting the fugitive felon
non-payment provisions to individuals wanted for violent or drug-related crimes instead
of any felony offense. 16 Additionally, legislative changes could be considered to require
that all law enforcement agencies enter warrant information into a central source, such
as the Federal Bureau of Investigation’s National Crime Information Center, eliminating
the need for SSA to negotiate computer matching agreements with individual law
enforcement agencies.

QUESTION 4
For the information requested above, to the degree possible, please provide a breakout
of underlying offenses.

Tables 4 and 5 show the 271,618 fugitive felons and probation or parole violators whose
SSNs we verified through SSA’s Enumeration Verification System. This file of SSNs
included all fugitive felons and probation or parole violators as of October 5, 2006.
Table 4 classifies the offense codes in broad categories while Table 5 provides a more
detailed classification of the offense codes.




15
  The Social Security Act §§ 202(x)(1)(A)(iv)-(v) and (B)(iii)-(iv), 42 U.S.C. §§ 402(x)(1)(A)(iv)-(v) and
(B)(iii)-(iv), as amended by § 203 of the Social Security Protection Act of 2004, Pub. L. No. 108-203,
March 2, 2004, and the Social Security Act § 1611(e)(4), 42 U.S.C. § 1382(e)(4).
16
   According to SSA, the Department of Justice provides information on crimes through a number of
sources, including the Bureau of Justice Statistics. The Bureau of Justice Statistics defines violent
offenses as those that are “threatening, attempting, or actually using physical force against a person.”
Examples of such crimes are murder, assault, sexual abuse, and kidnapping.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                                9
                     Table 4: Offenses Committed by Fugitive Felons and
                                 Probation or Parole Violators
                                                                Number
                             Category of Crime                                    Portion
                                                                of Cases
                   Probation/Parole Violation                     104,720            38.6%
                   Nonviolent or Not Drug Related                  89,955            33.1%
                   Drug Related                                    38,148            14.0%
                   Violent                                         19,864             7.3%
                   Unknown                                         18,931             7.0%
                    Total                                         271,618          100.0%

                  Table 5: Detailed Classification of Offenses Committed by
                      Fugitive Felons and Probation or Parole Violators
                                                         Number of    Portion of All
                            Warrant Offense 17
                                                            Cases        Cases
                 Cases SSA Would Withhold or Recover Payment from Under the
                                        Martinez Settlement
             Probation/Parole Violation                       104,720        38.6%
             Flight/Escape (Martinez Settlement)                1,982         0.7%
              Sub-total                                                106,702              39.3%
               Cases SSA Will No Longer Be Able to Withhold or Recover Payment
                                from Under the Martinez Settlement
             Dangerous Drugs *                                 38,148      14.0%
             Obstruct (Specify)                                25,762       9.5%
             Unknown                                           18,931       7.0%
             Assault *                                         11,941       4.4%
             Larceny                                           11,620       4.3%
             Burglary                                          10,058       3.7%
             Forgery/Counterfeiting                             7,670       2.8%
             Fraud                                              5,482       2.0%
             Traffic Offenses                                   4,501       1.7%
             Sex Offense                                        4,054       1.5%
             Robbery *                                          3,965       1.5%
             Stolen Vehicle                                     3,615       1.3%
             Weapon Offense                                     3,069       1.1%
             Sexual Assault *                                   2,312       0.9%
             Stolen Property                                    2,191       0.8%
             Family Offense                                     1,854       0.7%
             Health/Safety                                      1,279       0.5%

17
     Violent crimes and drug-related crimes are indicated with an asterisk (*).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                       10
                  Table 5: Detailed Classification of Offenses Committed by
                      Fugitive Felons and Probation or Parole Violators
                                                                 Number of   Portion of All
                          Warrant Offense 17
                                                                   Cases        Cases
             Damage Property                                           1,179         0.4%
             Juvenile Offenses 18                                        920         0.3%
             Crimes Against Person                                       889         0.3%
             Homicide *                                                  849         0.3%
             Arson                                                       806         0.3%
             All other offenses 19                                     3,821         1.4%
              Sub-total                                              164,916        60.7%

               TOTAL                                                   271,618       100.0%




18
  Of these 920 juvenile cases, 644 were for violation of parole or probation (Offense Codes 8101 and
8102), and 276 cases were for escape from custody (Offense Code 8100).
19
     See Appendix D for all other offenses committed by fugitive felons.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                          11
                                                                Conclusion
The Martinez settlement will reduce Title II and XVI payment suspensions to fugitive
felons, resulting in the payment of millions of program dollars that would have otherwise
not been paid or would have been recovered.




Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                          12
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Additional Background
APPENDIX D – Other Offenses Committed by Fugitive Felons




Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)
                                                                Appendix A

Acronyms
    OIG                Office of the Inspector General

    Pub. L. No.        Public Law Number

    SSA                Social Security Administration

    SSN                Social Security Number

    U.S.C.             United States Code




Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

       Researched the Social Security Administration’s regulations, policies, and
        procedures related to fugitive felons and probation or parole violators as they relate
        to the Martinez settlement.

       Reviewed Office of the Inspector General reports related to fugitive felons and
        probation or parole violators. Specifically, we reviewed the following reports.
                Assessment of the Supplemental Security Income Fugitive Felon Project
                 (A-01-03-23070), September 2003.
                Title II Benefits to Fugitive Felons and Probation or Parole Violators
                 (A-01-07-17039), July 2008.
                Fugitive Felons Serving as Representative Payees (A-01-08-18021),
                 March 2009.
                Probation or Parole Violators Serving as Representative Payees
                 (A-01-09-29112), August 2009.
                Semiannual Report to Congress, October 1, 2008 – March 31, 2009.

       Analyzed a data file of 271,618 fugitive felons and probation or parole violators as
        of October 5, 2006 to identify the number of fugitives per Offense Code.

       Calculated Title II and XVI program funds that would be paid or recovered because
        of the Martinez settlement agreement that otherwise would not have been paid or
        recovered pre-Martinez.

We performed our review in August and September 2009 in Boston, Massachusetts.
The data we used had been tested and determined sufficiently reliable in our prior
audits (listed above). The entity reviewed was the Office of Income Security Programs
under the Deputy Commissioner for Retirement and Disability Policy. We conducted
our review in accordance with the President’s Council on Integrity and Efficiency’s
Quality Standards for Inspections. 1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)
                                                                                          Appendix C

Additional Background
Fugitive Felons—Pre-Martinez Settlement Agreement

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 precluded
eligibility for Title XVI payments for certain fugitive felons effective August 1996. 1 An
individual receiving Title II and XVI concurrently continued to receive the Title II benefits
even though the Title XVI payments were suspended.

The Social Security Protection Act of 2004 extended the fugitive felon non-payment
provision to Title II beneficiaries beginning January 1, 2005. 2 This law made persons
ineligible to receive Title II benefits during any month in which they were fleeing to avoid
prosecution, custody, or confinement for felonies or violating a condition of probation or
parole under Federal or State law.

The Social Security Administration (SSA) considers a person to be “fleeing to avoid
prosecution, custody, or confinement” when that person has an outstanding warrant for
his or her arrest, even if he or she is unaware of the warrant. 3 However, under the
authority granted in the law, SSA will continue payments to beneficiaries who have
unsatisfied warrants if “good cause” exists to do so.

Before SSA takes action to suspend benefit payments, it sends the beneficiary a notice
about the warrant information the Agency has received and the impact it may have on
benefit payments. The notice also advises the beneficiary of his or her rights to file an
appeal or request a waiver. Finally, the letter informs the beneficiary of the conditions
that must be met for the Agency to find that there is “good cause” to continue the benefit
payments. Good cause may be either mandatory or discretionary. 4




1
    Pub. L. No. 104-193, § 202. See Social Security Act § 1611(e), 42 U.S.C. §1382(e).
2
 Pub. L. No. 108-203, § 203. See Social Security Act §§ 202(x) and 1611(e), 42 U.S.C. §§ 402(x) and
1382(e).
3
  Social Security Acquiescence Ruling 06-1(2), Fowlkes v. Adamec, 432 F.3d 90 (2d Cir. 2005):
Determining Whether an Individual Is a Fugitive Felon Under the Social Security Act—Titles II and XVI of
the Act, Federal Register, Vol. 71, No. 66, at page 17551 (April 6, 2006).
4
    The Social Security Act §§ 202(x)(1)(B)(iii) and (iv), 42 U.S.C. §§ 402(x)(1)(B)(iii) and (iv).


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                         C-1
The U.S. Second Circuit Court of Appeals, in the case of Fowlkes v. Adamec, stated the
term “fleeing” (in § 1382(e)(4)(A) of the Social Security Act) is understood to mean “the
conscious evasion of arrest or prosecution,” and that SSA could not conclude from the
mere fact that an outstanding felony arrest warrant exists that an individual is “fleeing.” 5
As a result of the Fowlkes decision, SSA issued an acquiescence ruling and—beginning
in December 2005—the Agency no longer suspended benefits to fugitive felons (not
including probation or parole violators) residing in the Second Circuit—Connecticut,
New York, and Vermont.

Fugitive Felons—Martinez Settlement Agreement

On September 24, 2009, the U.S. District Court of Northern California had given final
approval to a settlement agreement in the Martinez class action lawsuit involving SSA’s
fugitive felon program. It is anticipated the settlement will become legally effective on
November 29, 2009. Specifically, the agreement allows SSA to stop benefit payments
to fugitive felons in only three Offense Code categories: 6
         Escape (4901);
         Flight to avoid prosecution, confinement, etc.4902); and
         Flight-Escape (4999).

Additionally, under the Martinez settlement agreement, SSA will not select as a
representative payee individuals having an outstanding felony warrant issued for one of
the three offenses cited above. However, SSA reserves the right to use all warrant
information in determining an individual’s suitability to serve as a representative payee.




5
    Fowlkes v. Adamec, supra at p. 97.
6
  The three Offense Codes specified—4901, 4902, and 4999—are National Crime Information Center
Uniform Offense Class Codes. As a result of the agreement, SSA’s Office of the Inspector General would
refer to SSA only those fugitive felons having one of these offense codes.


Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)                                     C-2
                                                                Appendix D

Other Offenses Committed by Fugitive Felons
              All Other Offenses from Table 5
                                                Number Receiving
               in Results of Review Section of
                                                     Benefits
                            Report
                  Cases SSA Will No Longer Be Able to Withhold or
                Recover Payment From Under the Martinez Settlement
              Kidnapping                                645
              Obstruct Police                           574
              Public Order Crimes                       389
              Public Peace                              312
              Embezzle                                  275
              Commercial Sex                            263
              Invade Privacy                            246
              Property Crimes                           240
              Terrorism                                 152
              Military Desertion                        140
              Extortion                                 109
              Smuggling                                  97
              Liquor                                     87
              Bribery                                    63
              Gambling                                   41
              Morals/Decency Crimes                      37
              Civil Rights                               31
              Obscenity                                  30
              Witness                                    28
              Aiding Prisoner/Fugitive                   22
              Tax Revenue                                16
              Conservation                                9
              Immigration                                 6
              Money Laundering                            4
              Election Laws                               2
              Antitrust                                   2
              Espionage                                   1
              Total                                   3,821




Fugitive Felons—Martinez Settlement Agreement (A-01-09-29177)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
